                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-02903-211



                Healthcare Inspection

            Reporting of Suspected 

                Patient Neglect 

           Central Alabama Veterans 

             Health Care System 

              Tuskegee, Alabama 





July 16, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                    Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection to evaluate allegations related to the reporting of suspected patient neglect at
the Central Alabama Veterans Health Care System in Tuskegee, AL.

We did not substantiate that a registered nurse (RN) failed to report a case of suspected
neglect to Adult Protective Services or that the RN failed to triage the patient to
determine the need for intervention. The RN’s actions on April 4 were clinically
appropriate. Documentation reflected that the RN attended to the caregiver’s concerns
and initiated processes to secure respite care and in-home nursing services to support
both the patient and caregiver.

We did not substantiate that a social work supervisor improperly restricted a social
worker’s ability to report cases of abuse and neglect. Facility practice is for social
workers to discuss, when possible, cases of suspected abuse and neglect with their
supervisors before reporting.

We made no recommendations.

Comments

The Veterans Integrated Service Network and Facility Directors concurred with the
report. (See Appendixes A and B, pages 6–7 for the Directors’ comments.)




                                                         JOHN D. DAIGH, JR., M.D.
                                                        Assistant Inspector General for
                                                          Healthcare Inspections




VA Office of Inspector General                                                                 i
                                            Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to evaluate allegations related to the reporting of suspected patient
neglect at the Central Alabama Veterans Health Care System (CAVHCS) in
Tuskegee, AL. The purpose of the review was to determine whether the allegations had
merit.

                                            Background 

CAVHCS is a two-division health care system located in Montgomery and Tuskegee,
AL, that provides a broad range of inpatient and outpatient health care services.
Outpatient care is also provided at three community-based outpatient clinics located in
Dothan and Fort Rucker, AL, and in Columbus, GA. CAVHCS is part of Veterans
Integrated Service Network (VISN) 7 and serves a veteran population of about 134,000
in central and southeastern Alabama and western Georgia.

Veterans Health Administration (VHA) Directive 2012-022, Reporting Cases of Abuse
and Neglect (September 4, 2012), requires VHA medical facilities to follow relevant
state statutes for the identification, evaluation, treatment, referral and/or mandated
reporting of possible victims of physical assault, rape or sexual molestation, and abuse
and/or neglect of elders, spouses, partners, and children.1

The State of Alabama defines neglect as the “failure of a caregiver to provide food,
shelter, clothing, medical services, or health care for the person unable to care for
himself or herself . . . .”2

Allegations

On April 6, 2014, the OIG Hotline Division received an e-mail alleging that:

      1. A registered nurse (RN) failed to report a self-described case of caregiver
         (sibling) neglect of a patient to Adult Protective Services (APS).

      2. The RN did not perform health-related triage to determine the veteran’s status
         after an April 4 telephone call with the caregiver in which the neglect was
         described.

      3. A social work supervisor improperly restricted a social worker’s ability to report
         patient abuse and neglect.




1
    VHA Directive 2012-022, Reporting Cases of Abuse and Neglect, September 4, 2012.
2
    Alabama Code - Section 38-9-2. 


VA Office of Inspector General                                                                        1
                                 Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL



                            Scope and Methodology 

We reviewed VHA, VISN, and facility policies related to reporting of suspected abuse
and neglect; Alabama law regarding reporting of suspected elder abuse and neglect;
facility reporting agreements with law enforcement; RN and social work scopes of
practice; selected social worker and nurse competency and training records; reports of
contact; and the patient’s medical record for the period January 1, 2013, through
April 25, 2014.

We interviewed the complainant, facility director, Deputy Chief of Staff, Chief of Social
Work, social work supervisor, social worker, patient’s primary care provider, weekend
cross-covering physician, subject nurse, and others with knowledge about this issue.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                             2
                                  Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL



                                 Event Summary 

The patient is an elderly male with a primary medical history significant for poorly
controlled diabetes mellitus, hypertension, and dementia. His medications include
insulin and metformin for diabetes, and carvedilol, lisinopril, and Lasix® for high blood
pressure. He has resided at home with a sibling caregiver for the past 3 years and has
received periodic home health aide support. The patient has a history of refusing
medications and not attending medical appointments and has been described by his
caregiver as “uncooperative.” The patient’s primary medical care is provided through
the geriatric clinic patient-aligned care team (PACT), and although the patient
sometimes misses scheduled appointments, the caregiver and PACT team
communicate regularly over the telephone.

The PACT RN spoke with the patient’s caregiver in the late afternoon on a Friday in
April 2014. The RN documented the caregiver’s report that “she is not giving the
veteran life sustaining medications; she feels he is too uncooperative and he refuses to
take his medications.” The RN documented that the caregiver requested a skilled nurse
to assist with administering medications and a change from “standard insulin methods”
to a “pen” to help the patient with insulin compliance.” The RN encouraged the
caregiver to seek social work and mental health assistance regarding the patient’s care,
and she addressed future appointments and documented that several medications had
been refilled. The RN wrote, “Writer will forward to provider for further instructions
regarding this situation” and copied the patient’s PACT primary care provider (PCP), the
weekend cross-covering physician, and the PACT social worker.

The PACT social worker completed an addendum to the RN’s note indicating that she
would follow up with the PCP about a homemaker home health aide application. The
social worker signed the addendum after 5 pm of the same afternoon and copied the
PACT team RN, the PCP, and the covering physician.

The following Monday, the covering physician spoke with the patient and caregiver via
telephone. The covering physician documented, “[caregiver] stated that the veteran is
non-compliant with his medications, and she got angry at him and stopped giving his
medications about 1½ months ago, she stated that the veteran has been giving insulin
by himself, but she is not giving him any of his PO [oral] medications.” The covering
physician and the caregiver discussed service options, and while the caregiver declined
nursing home placement for her brother, she agreed to respite care and homemaker
home health aide services. The covering physician counseled the patient and caregiver
about the importance of taking prescribed medications and to attend a follow-up
appointment later in April (which he missed). Both agreed.

As of early May, applications for respite and home care services for the patient and
caregiver were in process.




VA Office of Inspector General                                                              3
                                          Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL



                                    Inspection Results 

Issue 1: Nurse’s Actions

APS Reporting

We did not substantiate that the PACT RN failed to report a case of caregiver neglect of
a veteran to APS. While the caregiver’s report was concerning, medical record
documentation did not reflect a “failure of the caregiver to provide food, shelter, clothing,
medical services, or health care for the person unable to care for himself or herself…”
Rather, the medical record reflected the patient’s refusal to take medications.

A basic principle in bioethics is the patient’s right to self-determination, including the
right to accept or refuse treatment.3 The RN’s progress note described the caregiver’s
frustration at the patient’s ongoing resistance to taking medications. Because the
caregiver could not force the patient to take medication, she sought other options to
promote the patient’s compliance with treatment and requested a visiting nurse to assist
with medication administration and to change from an insulin syringe to an insulin pen.
Ultimately, the patient may still decline medications or other treatment, even if doing so
would be life-limiting.

The RN told us that while she did not suspect neglect in this case, she was concerned
about the patient not taking his medications as prescribed. She took appropriate action
by documenting the situation, notifying the physician and social worker, and initiating
support services. These actions also conform to local policy when nurses suspect
abuse or neglect.4

Triage

We did not substantiate the allegation that the RN did not perform health-related triage
of the patient’s status.

Triage is a clinical process where the provider assesses the patient’s current status and
determines the priority level for intervention, if any is needed. The patient’s refusal to
take medications and participate in medical care and appointments was a well-
documented problem in the previous year, and this behavior did not reflect a change
from the patient’s baseline.

The caregiver did not express concerns, and although the RN could have assessed the
patient’s medical status, there was no indication that the patient was emergently
symptomatic or at imminent risk because he had not taken medications recently. That
the RN addressed the caregiver’s expressed concerns and properly notified the
physician of the situation was a reasonable course of action. The physician followed up
with the caregiver the following Monday, counseled both the caregiver and patient about

3
    VA Patient Bill of Rights, www.va.gov/vhapublications. Retrieved May 20, 2014.

4
    CAVHCS Memorandum 11-10-36, Assessment, Treatment and Reporting of Abuse, September 3, 2010.



VA Office of Inspector General                                                                      4
                                 Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL


the importance of taking medications as prescribed, and scheduled an appointment
approximately 2 weeks later (which the patient later refused to attend).

Issue 2: Social Work Supervisor’s Actions

We did not substantiate that a social work supervisor improperly restricted a social
worker’s ability to report patient abuse and neglect. The social worker was instructed to
discuss cases of suspected abuse or neglect with the supervisor before reporting. This
is a clinically sound practice to ensure accurate reporting of appropriate cases.

                                  Conclusions 

We did not substantiate that an RN failed to report a case of suspected neglect to APS
or that the RN failed to triage the patient to determine the need for intervention. The
RN’s actions were clinically appropriate. Documentation reflected that the RN attended
to the caregiver’s concerns and initiated processes to secure respite care and in-home
nursing services to support both the patient and caregiver.

We did not substantiate that a social work supervisor improperly restricted a social
worker’s ability to report cases of abuse and neglect. Facility practice is for social
workers to discuss cases of suspected abuse and neglect with their supervisors before
reporting whenever possible.

We made no recommendations.




VA Office of Inspector General                                                             5
                                           Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL
                                                                                           Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                        Memorandum


       Date:       June 13, 2014

       From:      Director, VA Southeast Network (10N7)

       Subject: Draft Report—Healthcare Inspection—Reporting of Suspected
                Patient Neglect, Central Alabama Veterans Health Care System,
                Tuskegee, AL

       To:        Director, Atlanta Office of Healthcare Inspections (54AT)
                  Director, Management Review Service (VHA 10AR MRS OIG Hotline)


                   1. I have reviewed the subject Draft Report which indicates that
                      there are no findings. VISN 7 appreciates the OIG’s efforts
                      and partnership as we strive to provide Veterans the highest
                      quality care.

                   2. If there are any questions, please contact Robin Hindsman,
                      QMO at 678-924-5700.



                   (original signed by:)

                   Charles E. Sepich, FACHE




VA Office of Inspector General                                                                       6
                                         Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL
                                                                                         Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                      Memorandum


     Date:     June 9, 2014

     From:     CAVHCS Director (619/00)

    Subject: 	Draft Report—Healthcare Inspection—Reporting of Suspected
              Patient Neglect, Central Alabama Veterans Health care System,
              Tuskegee, AL

        To:     Director, VA Southeast Network (10N7)


                 1.    I have reviewed the Tuskegee, AL OIG Draft Report and
                 concur with the report, which indicates that there were no findings.
                 We appreciate the OIG’s efforts to support CAVHCS’ delivery of
                 the highest quality of care to our Veterans.

                 2.   If there are any questions, please contact Ms. Brenda
                 Winston, Chief, Quality Management, at 334-272-4670, extension
                 6397.


                 (original signed by:)

               James R. Talton, FACHE




VA Office of Inspector General                                                                     7
                                     Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Sheyla Desir, RN, MSN
                         Victoria Coates, LICSW, MBA
                         Alan Mallinger, MD




VA Office of Inspector General                                                                 8
                                   Reporting of Suspected Patient Neglect, CAVHCS, Tuskegee, AL
                                                                                   Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, CAVHCS, Montgomery, AL (619/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
Senate: Jeff Sessions, Richard C. Shelby
House of Representatives: Spencer Bachus, Martha Roby, Mike D. Rogers, Terri Sewell


This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                               9
